<html>
<title> - PROTECTING AND RESTORING AMERICA'S GREAT WATERS: THE LONG ISLAND SOUND</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



            PROTECTING AND RESTORING AMERICA'S GREAT WATERS:
                         THE LONG ISLAND SOUND

=======================================================================

                                (111-67)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 6, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
52-693 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)




            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland           Carolina
SOLOMON P. ORTIZ, Texas              TODD RUSSELL PLATTS, Pennsylvania
PHIL HARE, Illinois                  BILL SHUSTER, Pennsylvania
DINA TITUS, Nevada                   MARIO DIAZ-BALART, Florida
HARRY TEAGUE, New Mexico             CONNIE MACK, Florida
ELEANOR HOLMES NORTON, District of   LYNN A WESTMORELAND, Georgia
Columbia                             CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    ROBERT E. LATTA, Ohio
GRACE F. NAPOLITANO, California      ANH ``JOSEPH'' CAO, Louisiana
MAZIE K. HIRONO, Hawaii              PETE OLSON, Texas
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
CORRINE BROWN, Florida
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)










                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Brown, P.E., D.E.E., Jeanette A., Executive Director, Stamford 
  Water Pollution Control Authority, Stamford, Connecticut.......     5
Crismale, Nicholas, President, Connecticut Commercial 
  Lobsterman's Association, Guilford, Connecticut................     5
Esposito, Adrienne, Executive Director, Citizens Campaign for the 
  Environment, Farmingdale, New York.............................     5
Marrella, Commissioner Amey, Connecticut Department of 
  Environmental Protection, Hartford, Connecticut................     5
Schmalz, Leah, Director of Legislative and Legal Affairs, Save 
  the Sound at Connecticut Fund for the Environment, New Haven, 
  Connecticut....................................................     5
Scully, Peter, Regional Director, Long Island Sound Regional 
  Office, New York State Department of Environmental 
  Conservation, Stony Brook, New York............................     5
Tedesco, Mark, Long Island Sound Office, United States 
  Environmental Protection Agency................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Boozman, Hon. John, of Arkansas..................................    28
Carnahan, Hon. Russ, of Missouri.................................    31
Mitchell, Hon. Harry E., of Arizona..............................    32
Oberstar, Hon. James L., of Minnesota............................    33

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brown, P.E., D.E.E., Jeanette A..................................    37
Crismale, Nicholas...............................................    51
Esposito, Adrienne...............................................    57
Marrella, Commissioner Amey......................................    80
Schmalz, Leah....................................................    99
Scully, Peter....................................................   113
Tedesco, Mark....................................................   119

                       SUBMISSION FOR THE RECORD

Esposito, Adrienne, Executive Director, Citizens Campaign for the 
  Environment, Farmingdale, New York, supplemental testimony.....    65

                         ADDITION TO THE RECORD

Long Island Sound Caucus, Rep. Israel, Rep. DeLaura, and Rep. 
  Lowey, Representatives in Congress from the State of New York, 
  letter to the Subcommittee on Water Resources and Environmental 
  of the House Committee on Transportation and Infrastructure....   128



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 PROTECTING AND RESTORING AMERICA'S GREAT WATERS: THE LONG ISLAND SOUND

                              ----------                              


                        Tuesday, October 6, 2009

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. I would like to call this Subcommittee to 
order. This morning we will be holding a hearing on Protecting 
and Restoring America's Great Waters: The Long Island Sound.
    Good morning. Today's hearing will focus on both the 
current state of Long Island Sound and ways to strengthen 
Federal programs to address continuing impairments to the 
Sound. I expect that today's hearing will help the Subcommittee 
in its efforts to reauthorize the Clean Water Act, section 
119--the Long Island Sound Study Program.
    The Long Island Sound is one of the Nation's largest and 
most diverse estuaries, home to many types of fish and 
wildlife, including oysters, lobsters and over 120 species of 
fish. The Sound is also an incredibly important economic driver 
for the region, bringing in an estimated $5.5 billion annually 
for the more than 20 million people who live within 50 miles of 
its waters.
    The Sound provides a robust commercial fishing industry as 
well as a popular destination for recreational boating, 
fishing, and swimming.
    However, the Long Island Sound suffers from impairment. 
Every summer, the Sound experiences harmful algae blooms. These 
create large dead zones that starve the Sound's plant and 
animal life of the oxygen they need to survive. In 2007, the 
area of the dead zone was four times the size of Manhattan. The 
dead zone in the Sound is caused by excessive loads of 
nitrogen, a nutrient that fertilizes the waters and causes the 
growth of excess algae. The decomposition of this algae 
consumes oxygen resulting in dead zone areas.
    The majority of nitrogen loadings come from wastewater 
treatment plants located within the Sound's watershed, which 
stretches upstream, all the way to Massachusetts, New Hampshire 
and Vermont; but these wastewater treatment plants are not the 
whole picture in terms of nitrogen pollution in the Sound.
    Urban runoff is a large and growing contributor of nitrogen 
and other pollutants to the Sound. The Long Island Sound is 
located in one of the most densely urbanized areas of the 
country. More than 20 percent of the land in the Long Island 
Sound Study area is currently developed. Developed land creates 
impervious surfaces such as roads, bridges, buildings, which 
does not allow for the infiltration of precipitation into the 
soil. Instead, precipitation runs off these surfaces and into 
streams or storm drains, picking up pollutants such as 
fertilizers, heavy metals and pathogens with it.
    There are other major sources of nitrogen to the Sound that 
must still be addressed. These include atmospheric deposition, 
combined sewer overflows and agricultural runoff. One damaging 
result of the dead zone in the Sound is the loss of eelgrass, 
which is the essential habitat for many types of fish in the 
Sound. Eelgrass in the western Sound has virtually disappeared. 
These conditions were also determined to have contributed to 
the massive lobster die-off that took place in 1999, which 
decimated both the Sound's lobster population and the regional 
lobster industry. As a result, annual lobster catches of 7 to 
12 million pounds were reduced to less than 1 million pounds.
    The Sound also experiences frequent beach closures along 
its shores due to high levels of pathogens that are transported 
into the Sound's water after storms through combined sewer 
overflow events. Additionally, despite the dramatic reductions 
in toxic discharges to the Sound, atmospheric deposition and 
legacy contamination of sediment cause toxic contamination to 
the waters of the Sound. New York and Connecticut must still 
maintain consumption advisories for several types of fish 
because they are unsafe for humans to eat on a daily basis.
    It is because of these challenges that we are holding this 
hearing on the Long Island Sound.
    We have made significant progress in upgrading wastewater 
treatment plants in Connecticut and New York and in reducing 
the nitrogen loadings to the Sound. However, the Sound will not 
be fully restored unless there is more done to address the 
remaining problems. Chief among these problems are urban runoff 
and the integration of upstream States into the current 
program.
    I welcome our witnesses today, and look forward to hearing 
your testimony. Our ultimate goal is to use your suggestions 
and recommendations to create a Federal program that would 
better facilitate the restoration of the Long Island Sound. I 
thank you for being here this morning.
    I now yield to the Subcommittee Ranking Member, Mr. Boozman 
of Arkansas.
    Mr. Boozman. Thank you very much, Madam Chair.
    The Subcommittee is meeting today to hear testimony about a 
longstanding program under the Clean Water Act that is aimed at 
helping to restore and protect the Long Island Sound. Long 
Island Sound is unique, and is a highly productive estuary that 
is important to the ecological and economic bases of our 
Nation.
    Fisheries, wildlife, recreation, and tourism are heavily 
dependent on a healthy Long Island Sound and other estuarine 
systems. Yet, despite its values, most estuaries in the United 
States, including Long Island Sound, are experiencing stress 
from physical alteration and pollution, often resulting from 
development and rapid population growth in coastal areas.
    In the 1980s, Congress recognized the importance of and the 
need to protect the national functions of our Nation's 
estuaries. As a result, in 1987 Congress amended the Clean 
Water Act to establish the National Estuary Program. The 
National Estuary Program identifies nationally significant 
estuaries that are threatened by pollution, land development 
and overuse, and it provides grants that support the 
development of the Comprehensive Conservation and Management 
Plan to protect and restore them. The program is designed to 
resolve issues at a watershed level, integrate science into the 
decision-making process, foster collaborative problem-solving, 
and involve the public.
    Unlike many EPA and other Federal programs that rely on 
conventional top-down regulatory measures to achieve 
environmental goals, the National Estuary Program uses a 
framework that focuses on stakeholder involvement and 
interaction in tailoring solutions for problems that are 
specific to that region in order to achieve estuarine 
protection and restoration goals.
    Since its inception, the National Estuary Program has been 
a leading example of a collaborative institution designed to 
resolve conflict and to build cooperation at the watershed 
level. Today the National Estuary Program is an ongoing, non-
regulatory program that supports the collaborative, voluntary 
efforts of stakeholders at the Federal, State and local levels 
to restore degraded estuaries.
    Currently, Long Island Sound is a part of the National 
Estuary Program, and it is implementing restoration plans 
developed at the local level through a collaborative process.
    The National Estuary Program has been beneficial in 
improving and protecting the condition of the estuaries in the 
program, and the program shows that a collaborative, voluntary 
approach can provide an alternative to the sole reliance on 
traditional command and control mechanisms.
    I look forward to the testimony of our witnesses today, and 
look forward to hearing about the progress of the Long Island 
Sound program and how the National Estuary Program is working 
and about ways to improve the program in the future.
    Thank you very much, Madam Chair.
    Ms. Johnson. Thank you very much.
    Are there other opening statements?
    Mr. Bishop. Madam Chair, I thank you for holding this 
hearing. I represent the eastern end of Long Island, and the 
entire northern border of my district is the Long Island Sound, 
so it is a subject of great importance to me, to my 
constituents and to all of the residents of Long Island.
    The Long Island Sound and its watershed have sustained New 
York and Connecticut communities for hundreds of years. An 
estimated 8 million people live within the Long Island Sound 
watershed. Roughly 20 million people live within 50 miles of 
the Sound. Businesses dependent on the health and viability of 
the Sound account for an estimated $5.5 billion in economic 
activity annually.
    However, as our region has grown, so has the degradation of 
our precious water resources. Like so many other bodies of 
water across the Nation, for years the Long Island Sound was 
exploited not only for its resources but also as a dumping 
ground for waste.
    Many of our panelists today will underscore the sensitivity 
of the Sound and how it can be irreparably harmed, either 
directly through carelessness or indirectly through point and 
nonpoint source pollution and other factors.
    Mr. Crismale's testimony is especially troubling as he 
recalls the 1999 lobster mortality event and how the 
degradation of the Sound as a resource has fundamentally 
altered the lobster and fishing communities that surround the 
Sound.
    In my opinion, the character of eastern Long Island was 
built upon the fishing industry, aquaculture and the rural 
environment, and it is the very reason that we draw so many 
visitors today. It is this culture, based on our water 
resources, that supports our small businesses and that provides 
the bedrock of our local economy. If we allow the Sound to 
further deteriorate, the very nature of what makes eastern Long 
Island the destination for so many will also deteriorate and 
will be very difficult, if not impossible, to rebuild.
    In many ways, the Sound has been fortunate. Congress and 
the surrounding States recognize its importance to the region's 
environmental, social and economic health. Building upon the 
goals of the Clean Water Act, the efforts of the Long Island 
Sound Study and the inclusion of the Sound into the national 
estuary system have driven decisions about how we care for this 
abundant yet delicate resource.
    Madam Chair, it is my hope that this hearing will bring 
attention to the innovative strategies that have been 
implemented by Federal, State and local entities to protect the 
Long Island Sound. I want to thank today's panelists for all 
they do to protect the Sound, and I look forward to their 
testimony.
    I yield back.
    Ms. Johnson. Thank you very much.
    The other Member, Mr. Hall, is recognized.
    Mr. Hall. Thank you, Madam Chair.
    Just briefly, I thank you and the Ranking Member for 
holding this hearing. I look forward to the testimony of our 
witnesses.
    When I was a young boy, I was taught to sail by my father, 
and we sailed up and down Long Island Sound on our summer 
vacations many times. I remember times when there were floating 
patches of sewage out in the middle of nowhere, where you are 
practically out of sight of land. This was during some of the 
worst times of contamination.
    Just as with the Hudson River which runs through my 
district today--another estuary in need of constant maintenance 
and help--when we clean up one type of pollution, which is kind 
of like playing whack-a-mole, you discover there is another 
source that comes along. You discover chemical pollutants or 
the atmospheric deposition of pollutants which needs to be 
guarded against.
    I completely concur with my colleague Mr. Bishop's comments 
that this is not only a source of tourism, which is an 
important part of our economy, but that the health of our 
bodies of water, especially our major estuaries, will be and 
are indicators of the health of this planet, and of our country 
and its citizens.
    With that, I yield back, and look forward to the testimony 
of our witnesses.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Our witnesses now can take their seats at the table.
    Our first witness this morning is Mr. Mark Tedesco, who is 
director of EPA's Long Island Sound Office.
    Next to testify is Commissioner Amey Marrella. She is here 
today representing the Connecticut Department of Environmental 
Protection.
    Our third witness, Mr. Peter Scully, is the regional 
director of the Long Island Sound Regional Office with the New 
York State Department of Environmental Conservation.
    Following Mr. Scully is Ms. Jeanette Brown. Ms. Brown is 
executive director of the Stamford Water Pollution Control 
Authority, located in Stamford, Connecticut. She is also the 
vice president of the Water Environment Federation. Ms. Brown 
testified before this Committee earlier this year, and we 
welcome her back.
    Our next witness is Ms. Leah Schmalz. She is the director 
of legislative and legal affairs with Save the Sound. Save the 
Sound is associated with the Connecticut Fund for the 
Environment.
    Our sixth witness this morning is Ms. Adrienne Esposito. 
Ms. Esposito is executive director of the Citizens Campaign for 
the Environment, out of Farmingdale, New York.
    Our final witness this morning is Mr. Nicholas Crismale who 
is the president of the Connecticut Commercial Lobstermen's 
Association.
    So I thank all of you for attending today's hearing. We 
look forward to your insights on the issues affecting the 
Sound. Your full statements will be placed in the record, so we 
ask you to try to limit your testimony to about 5 minutes as a 
courtesy to the other witnesses.

  TESTIMONY OF MARK TEDESCO, LONG ISLAND SOUND OFFICE, UNITED 
   STATES ENVIRONMENTAL PROTECTION AGENCY; COMMISSIONER AMEY 
 MARRELLA, CONNECTICUT DEPARTMENT OF ENVIRONMENTAL PROTECTION, 
 HARTFORD, CONNECTICUT; PETER SCULLY, REGIONAL DIRECTOR, LONG 
  ISLAND SOUND REGIONAL OFFICE, NEW YORK STATE DEPARTMENT OF 
ENVIRONMENTAL CONSERVATION, STONY BROOK, NEW YORK; JEANETTE A. 
    BROWN, P.E., D.E.E., EXECUTIVE DIRECTOR, STAMFORD WATER 
   POLLUTION CONTROL AUTHORITY, STAMFORD, CONNECTICUT; LEAH 
 SCHMALZ, DIRECTOR OF LEGISLATIVE AND LEGAL AFFAIRS, SAVE THE 
   SOUND AT CONNECTICUT FUND FOR THE ENVIRONMENT, NEW HAVEN, 
 CONNECTICUT; ADRIENNE ESPOSITO, EXECUTIVE DIRECTOR, CITIZENS 
   CAMPAIGN FOR THE ENVIRONMENT, FARMINGDALE, NEW YORK; AND 
     NICHOLAS CRISMALE, PRESIDENT, CONNECTICUT COMMERCIAL 
        LOBSTERMAN'S ASSOCIATION, GUILFORD, CONNECTICUT

    Ms. Johnson. Mr. Tedesco, you may proceed.
    Mr. Tedesco. Thank you, Madam Chair and Members, for the 
opportunity to address the Subcommittee this morning.
    Professor Glenn Lopez of Stony Brook University called Long 
Island Sound "the Nation's first 21st century estuary." That 
resonated to me. What it suggests is that the changes that have 
gone on in the Long Island Sound watershed over 400 years are 
the same changes that many other systems' estuaries across the 
country have experienced or will experience. Long Island Sound, 
in essence, going through a cycle of agricultural development, 
industrial development, and urban and suburban development has 
seen many of the changes, again, that are occurring and that 
will occur in other systems. A positive aspect, I believe, is 
that some of the innovation and commitment that has been 
applied to Long Island Sound also provides some direction for 
how to approach issues elsewhere in the country.
    I am director of EPA's Long Island Sound Office. We are 
located in Stamford, Connecticut. Our job as directed under the 
Clean Water Act is to coordinate the Management Conference, a 
bi-State partnership in Long Island Sound, and to support the 
implementation of the comprehensive management plan for the 
Sound.
    To do it, we take a comprehensive and inclusive approach. 
We look at Long Island Sound as an ecosystem, unhindered by 
political boundaries. We recognize that human use is a vital 
component of that system and that science must inform all of 
our work. We work through partnerships and collaboration, and 
we bring together the skills and resources of sister Federal 
agencies, State and local agencies, the private and nonprofit 
sectors, and our research institutions to develop a shared 
vision of where Long Island Sound should go, again based on 
sound science.
    What are some of the key activities that we support?
    We have State and Federal staff dedicated to Long Island 
Sound, working on many of the issues. We support research and 
monitoring to understand the status and trends in habitat and 
water quality and to connect these trends to causes. We support 
the implementation of water quality and habitat restoration, 
watershed planning, nonpoint source pollution abatement, and 
land protection activities, and we support an active education 
and outreach program to involve local communities.
    Let me mention briefly some of the tangible benefits from 
investments that have been made in the restoration of Long 
Island Sound. The discharge of toxic contaminants in the 
Sound's watershed, as reported in the toxic release inventory, 
have decreased by 90 percent since 1998. As a result of those 
decreases, we are seeing lower levels of many toxic 
contaminants in the sediments, in the fish and shellfish of 
Long Island Sound.
    A recent example--work supported by the Long Island Sound 
Study and work conducted by both the State of Connecticut and 
the State of New York--sampled striped bass and bluefish, and 
found that PCB levels have decreased by 50 percent compared to 
levels of the 1980s, and these data have been used by both 
State health departments to update finfish consumption 
advisories for Long Island Sound.
    Clearly we have identified the problem of nutrients to Long 
Island Sound. They have been greatly reduced through a nutrient 
production program, and there have been innovative approaches 
in New York and Connecticut: in New York, the bubble strategy 
for aggregating permit reductions; and, in Connecticut, a 
Nitrogen Credit Exchange Program.
    There has been progress in habitat restoration, in 
restoring meadows of eelgrass to Long Island Sound and an 
understanding of broader changes of development throughout the 
watershed.
    Let me just touch on some of the key challenges that are 
ahead. One is certainly that we have the challenge of further 
reducing of pollution in light of continued development, 
increases of population in the watershed and continued 
development, and, clearly, limited resources at all levels of 
government. This is going to require us to focus on the most 
cost-effective ways to reduce nitrogen to Long Island Sound.
    Continued implementation in Connecticut and New York will 
need to be expanded to include the upland States of 
Massachusetts, New Hampshire and Vermont. We will need to 
incorporate those additional sources into a total maximum daily 
load that establishes load allocations for nitrogen reduction 
to Long Island Sound, and we will need to clearly stick to 
fundamentals in maintaining investments in the region's water 
infrastructure, and we will also need to continue to foster a 
climate of innovation.
    There are some clear examples: the National NonPoint 
Education for Municipal Officials. The program actually started 
in the State of Connecticut through a Long Island Sound Study-
funded project. There are the water quality trading programs 
both in New York and Connecticut, that I am sure our other 
panelists will talk further about, that will potentially save 
hundreds of millions of dollars and still help achieve nitrogen 
reduction goals.
    One avenue that we are quite interested in pursuing is 
looking at expanding the trading concept to include further 
additional States within the watershed, but also expand the 
concept to include what we call "bio-extraction technologies" 
to remove nitrogen from the Sound. The concept is using filter 
feeders, like oysters or seaweed, that can be harvested from 
the Sound; and, through the active culture, we can help support 
water-dependent jobs in Long Island Sound. We can improve the 
ecosystem through the functioning of these elements, as well as 
remove nutrients from Long Island Sound in a cost-effective 
manner. We have an international conference coming up, actually 
this December, to bring leading experts throughout the world to 
discuss this potential application for Long Island Sound.
    We are also working to integrate efforts to address climate 
change impacts to Long Island Sound, and we will continue to 
work with our sister Federal agencies, bringing staff into the 
program and making sure that we are integrating water quality 
habitat and management of living resources.
    I will just mention that one last item is a suggested 
technical fix to section 119 of the Clean Water Act, and that 
would be to add the word "cooperate" so that it would read: It 
would allow EPA to cooperate and coordinate activities and 
implementation responsibilities with other Federal agencies.
    This would give us specific legislative cooperative 
authority for Federal interagency agreements, again, to improve 
the efficiency and effectiveness of the program.
    I want to thank you, the Committee, for the opportunity. 
EPA believes it is vitally important to the economy of the 
region and to the ecology of the Sound, its habitats and living 
resources, as well as its users, to reauthorize appropriations 
for section 119 of the Clean Water Act. The EPA clearly 
believes that the partnership, the innovation and the 
commitment I have characterized in the Long Island Sound Study 
have brought positive environmental results.
    I will be happy to answer questions at the end of all the 
panelists' comments. Thank you for your time.
    Ms. Johnson. Thank you very much.
    You almost doubled your time. We do read your statements, 
so you do not have to read them in their entirety, but if you 
could give us a strong summary, we would appreciate it.
    Ms. Marrella.
    Ms. Marrella. Good morning, and thank you, Madam Chair, 
Ranking Member Boozman, and Members of the Subcommittee.
    My name is Amey Marrella, and I serve as commissioner of 
the Department of Environmental Protection. I appreciate this 
invitation to speak to you about Long Island Sound.
    I am pleased to report that Connecticut DEP and our Long 
Island Sound Study partners have made great strides in managing 
the Sound despite resource limitations and the unparalleled 
difficulty to the task. Sometimes signs of progress come in 
unusual ways.
    This past June, a pod of nearly 200 bottlenose dolphins 
passed through the Sound for the first time in at least 30 
years. We think this is an important symbol of the Sound's 
improved water quality. There is widespread agreement that 
water quality is a primary issue of concern to the health of 
the Sound, and hypoxia is our primary water quality challenge. 
I was asked today to speak to Connecticut's trading program as 
a means to reduce nitrogen, the pollutant most responsible for 
hypoxia.
    In Connecticut, our nitrogen trading program has 
accelerated progress with sewage treatment plant nitrogen 
control, while minimizing cost. We placed our municipal sewage 
treatment plants under a single general permit, and then 
required the aggregate discharges from all the plants to meet a 
nitrogen reduction target. An individual plant can meet the 
allotted reduction either through actual reduction or by 
purchasing credits generated by another facility.
    The trading program also recognizes that the impact of a 
plant's nitrogen discharge depends on the plant's proximity to 
the Sound. Trading ratios recognize that 100 pounds of nitrogen 
discharged in Greenwich will have a 100 percent impact on the 
hypoxic zone, while 100 pounds discharged in Hartford will have 
one-fifth the effect following natural attenuation.
    Trading thus provides a financial incentive for nitrogen 
reduction at plants whose discharge most directly impacts 
oxygen levels. Overall, we estimate that trading will save $300 
to $400 million in construction costs when fully implemented in 
2014 compared to the individual permit approach.
    In addition to hypoxia, other difficult and costly 
management issues facing the Sound include beach and shellfish 
bed closures after rain events, which can only be addressed by 
addressing stormwater; land use patterns that impair the 
biological health and productivity of our ecosystems; requiring 
new land management techniques such as green infrastructure and 
low-impact development; the need to preserve and to protect 
undeveloped land; the need to negotiate protocols and processes 
for the environmentally responsible management of dredge 
sediments.
    Finally, underscoring the complexity of the Sound is the 
potential effects of climate change with its predictions that 
climate change will bring increased temperatures, increased 
water levels and more severe storm events.
    In summary, there is much we have done and much that 
remains for us to do. The Long Island Sound Study has been an 
excellent forum for collaboration among the States, Federal 
agencies and the public, providing funding and motivation. Your 
support has been instrumental to our progress, and we ask for 
continued support from this Subcommittee and Congress to help 
us build on our progress in protecting and improving Long 
Island Sound for dolphins and people alike.
    Thank you very much.
    Ms. Johnson. Thank you very much.
    Mr. Scully.
    Mr. Scully. Good morning.
    Chairwoman Johnson, Ranking Member Boozman and 
distinguished Members of the Subcommittee, on behalf of New 
York Governor David A. Paterson and Department of Environmental 
Conservation Commissioner Pete Grannis, thank you for the 
opportunity to testify before you today on New York State's 
efforts to protect and restore Long Island Sound.
    I am the director of the Long Island Regional Office of the 
New York State Department of Environmental Conservation. My 
testimony today will address the actions which New York State 
has taken, in concert with our counterparts in Connecticut and 
USEPA, to restore the Sound. I will also address the State's 
recommendations for actions--which we encourage the 
Subcommittee to consider--to enhance our efforts to restore the 
Sound's water quality and bountiful natural resources.
    The achievements we have made to date have occurred under 
the auspices of the Long Island Sound Study, a 24-year 
cooperative project that is part of the National Estuary 
Program. The study culminated with the approval of the 
Comprehensive Conservation and Management Plan for the Long 
Island Sound, a blueprint to improve the health of the estuary.
    The CCMP identified seven priority areas for implementation 
in the Sound: load dissolved oxygen, or hypoxia; toxic 
contamination; pathogens; floatable debris; health of living 
resources and their habitats; land use; and public outreach and 
involvement.
    As one of the CCMP's key actions, municipalities which abut 
the Sound must upgrade their wastewater treatment facilities to 
virtually eliminate nitrogen discharges, which cause hypoxia, 
which impairs the feeding, reproduction and growth of aquatic 
life.
    Contaminated sediments impair resources, and make it more 
difficult to dispose of dredged material. Long Island Sound 
beaches are periodically closed, along with 73 percent of New 
York's productive shellfish beds, because of high levels of 
pathogens, potentially disease-causing organisms that reach the 
Sound through stormwater.
    New York State, county and local governments anticipate 
spending an estimated $1.1 billion on wastewater treatment 
upgrades in addition to the millions already invested. State 
and local funds also are being used to restore aquatic 
habitats, control nonpoint sources of pollution, acquire 
valuable open space, provide access, and to undertake many 
other essential projects, but New York cannot restore Long 
Island Sound alone.
    We appreciate our partnership with the USEPA, other Federal 
agencies, our counterparts in Connecticut, local governments, 
not-for-profit organizations, and most importantly, a very 
committed citizenry.
    In 2000, Congress approved the Long Island Sound 
Restoration Act so that the Federal Government could share in 
New York and Connecticut's commitment to the Sound. LISRA funds 
can be used for a wide variety of projects, including habitat 
protection and restoration, sewage treatment plant upgrades, 
program management, monitoring, education, research, and 
special projects.
    New York appreciates the commitment Congress has 
demonstrated to the Sound, in particular, the advocacy of 
Congress Members Israel, Bishop and Lowey, Senator Schumer and 
Senator Gillibrand. We are grateful for USEPA's consistent 
efforts to provide funding for Sound projects. Without 
continued congressional advocacy for this important estuary, 
however, we fear that efforts to restore Long Island Sound will 
continue to limp along.
    The issues I have raised, while important, are subsumed by 
the critical issue of sea-level rise and its potential impacts 
on Long Island's natural resources, water supplies and 
communities. Sea-level rise is contributing to saltwater 
intrusion into Long Island Sound's sole-source aquifer, which 
the entire region relies upon for its drinking water. Sea-level 
rise may determine future wastewater treatment needs. To 
prevent groundwater degradation, for example, it may be 
necessary to upgrade existing sewage treatment plants and to 
construct new plants to eliminate the use of aging and failing 
septic systems.
    While we need Federal support for wastewater treatment 
upgrades to reduce discharges to the Sound, it is also 
critically important to address stormwater discharges that have 
resulted in the closure of shellfish beds. Federal assistance 
is needed to restore habitats of this biologically productive 
region, such as tidal and freshwater wetlands, shellfish 
spawner sanctuaries, and to mitigate barriers to fish passage. 
Invasive species also must be targeted.
    Finally, I want to briefly mention LISRA's sister statute, 
the Long Island Sound Stewardship Act. It was enacted to 
identify, protect and enhance special places around Long Island 
Sound. LISSA acknowledges the necessity of the Federal role in 
protecting habitats along the Sound, not only to preserve 
environmental quality but to ensure public access to it. To 
date, LISSA has not been as effective as its sponsors 
envisioned. New York believes that amendments could be made to 
streamline this law and possibly fold it into LISRA. We defer 
to the Subcommittee to determine whether it would be feasible 
to consolidate both of these laws under one umbrella.
    Thanks again for this opportunity to address you today.
    Ms. Johnson. Thank you very much.
    Ms. Brown.
    Ms. Brown. Good morning, Madam Chair Johnson, Ranking 
Member Boozman and the other Subcommittee Members.
    My name is Jeannette Brown, and I am the executive director 
of the Stamford Water Pollution Control Authority, one of the 
largest wastewater utilities in Connecticut. I am also vice 
president of the Water Environment Federation, which is devoted 
to the preservation and enhancement of global water 
environment.
    I am honored to be here today to discuss the Connecticut 
Nitrogen Credit Trading Program and its impact on the water 
quality of Long Island Sound.
    Since the late 1980s, I have spent a great deal of time 
working on ways to optimize nitrogen removal at wastewater 
treatment plants, not only to benefit Stamford and Long Island 
Sound but also the wastewater community at large, and I have 
served on the Nitrogen Credit Trading Board since its 
inception.
    When the trading program was proposed, several 
municipalities in Connecticut were opposed to it. Many did not 
understand the concept of the trading program. Some wanted a 
free market system rather than a State being the bank. The 
Connecticut Conference of Mayors conducted several meetings 
between municipal government leaders, treatment plant managers 
and the State environmental agency. Through those meetings, a 
better understanding of the program arose, and municipal 
leaders began to understand the potential value of the program.
    The Stamford treatment plant receives wastewater from 
Stamford but also from the neighboring town of Darien, and we 
serve a population of about 100,000. In December of 2001, we 
began a project to upgrade and expand the treatment plant at a 
cost of $105 million, of which approximately $50 million was 
devoted to nitrogen removal. Stamford discharges to the area in 
Long Island Sound known as the "hotspot," the most impaired 
region. Our mayor, Dan Malloy, felt it was critical to the 
health of Long Island Sound that we proceed with the upgrade 
quickly, and the major selling point to our governing boards 
was the nitrogen trading program and the fact that we would 
receive revenue to help offset our user charge.
    The Stamford treatment upgrade was completed in late 2005. 
By mid-2006, we were removing considerable amounts of nitrogen. 
So far, we have been able to offset some of the incremental 
costs of nitrogen removal by selling nitrogen credits--45 
percent offset in 2006, 58 in 2007, and 73 percent in 2008. 
Between 45 and 73 percent of the incremental costs of operation 
and maintenance for nitrogen removal is covered by the revenue 
obtained by selling credits. Now, that is just the incremental 
O&M costs, and it does not reflect the total cost.
    This is very significant, however, when you understand that 
we would have been required to remove nitrogen whether or not 
there was a trading program. After working with the trading 
program for the past 7 years, I am totally supportive of the 
program, not just because we are a big seller of credits, but 
the program is an economical and fair way of meeting water 
quality standards. It is important to understand that 
municipalities have to comply with environmental regulations 
whether or not they can afford to do them. In Connecticut, the 
treatment plants are required to remove nitrogen, and soon many 
of them may be required to remove phosphorus. Upgrading 
treatment plants is expensive, and there is limited grant money 
available to help offset improvements. Even with grants, there 
is still significant debt service.
    The trading program allows officials and towns to evaluate 
the cost of upgrading versus the cost of continually purchasing 
credits. In some cases, town officials are putting off upgrades 
for a short period of time--5 years. In other cases, they 
determine that it is more economical to purchase credits long 
term. To this point, I have been focusing on point sources, but 
there is a major concern about how we deal with nutrients and 
pollutants being carried by nonpoint sources.
    This is a critical issue that does not have an easy fix, 
and will cost significant amounts of moneys. Many times, 
impaired bodies of waters cannot be helped by regulating the 
wastewater discharges, but because most of the pollutant comes 
in through stormwater discharges, stormwater management is very 
expensive and complex. Trading programs may play a big part in 
managing stormwater discharges of nutrients also.
    It is important to have highly trained regulators, 
engineers and operators, and the Water Environment Federation 
is taking a very active role in training engineers and 
regulators. We are currently doing a document for EPA, talking 
about nutrient removal at secondary treatment plants, and we 
are also providing training documents for operators who have to 
operate the treatment plants and for designers who design the 
plants.
    As you can see, I strongly believe that Connecticut's 
training program is a cost-effective and administratively 
viable approach to addressing nitrogen discharges from 
wastewater treatment facilities.
    As vice president, I will note that beyond Connecticut Long 
Island Sound, watershed base trading is a potentially cost-
effective and efficient approach to achieving and maintaining 
water quality goals and providing net water quality benefits to 
pollutant load reductions. It is very important that we 
consider trading programs when we are looking at the overall 
health of bodies of water such as Long Island Sound.
    Thank you.
    Ms. Johnson. Thank you very much.
    Ms. Schmalz.
    Ms. Schmalz. Good morning, Chairwoman Johnson, Ranking 
Member Boozman, Congressman Bishop, and distinguished Members 
of the Subcommittee. I am honored to be here today, and thank 
you for taking this time to consider the reauthorization of the 
Long Island Sound Restoration Act.
    Since we cannot take you on an historic sailing expedition 
aboard New Haven's tall ship, I thought a few snapshots might 
help you experience the degree modern technology will allow the 
Sound's wonder and culture as I highlight some of the 
challenges still plaguing our great water body.
    In 1994, the region rallied around the sixth goal captured 
in the Comprehensive Conservation and Management Plan. The Long 
Island Sound Restoration Act has come to be the premier tool in 
that CCMP's implementation toolbox. Section 119 is a solid 
statute that is, at once, broad, providing the needed 
flexibility to adapt and change resource management course as 
research around Long Island Sound develops, and it is specific 
enough to ensure restoration efforts continue to be measurable.
    However, there are four broad areas we perceive as 
hindrances to addressing water quality issues still impacting 
Long Island Sound: funding, enforcement, bi-State legislative 
coordination, and an aging management plan.
    For the last 10 years, section 119 has authorized $40 
million each year for activities associated in the furtherance 
of the CCMP. Unfortunately, the historical record also 
indicates that only a small fraction of that figure is ever 
allocated with the highest appropriation in 2005 yielding less 
than a sixth and the lowest in 2007 yielding less than a 30th. 
Even more, section 119 is identified as a source to fund 
expensive sewage treatment plant nitrogen reductions.
    While Connecticut has employed clean water fund 
reinvestment and an innovative nitrogen trading program, it has 
a staggering $5 billion sewage infrastructure need over the 
next 20 years. In New York, the situation is more alarming. 
With only a modest State allocation in 1996, the entire burden 
of required upgrades in New York City and Westchester County, 
if and when they are accomplished, will fall squarely on the 
shoulders of residents.
    Full LISRA funding for each of the next 5 years, paired 
with ongoing State investments, could substantially dent the 
upgrade price tag and provide for progress in other CCMP-
related efforts.
    Equally important and inextricably linked to adequate 
funding is adequate compliance and enforcement. Currently, the 
best laid plans are merely that--plans. While binding interim 
milestones, incorporated into a CCMP, are an option to ensure 
enforceability, the teeth for the Long Island Sound plan are 
derived from the various statutory and regulatory programs used 
to regulate existing facilities and projects or to evaluate new 
activities that could impact the Sound's watershed. It is the 
way we use and enforce those basic Federal, State and local 
laws that will dictated the timing and sufficiency of the Long 
Island Sound cleanup.
    Unfortunately, enforcement becomes tougher as State budgets 
get tighter and agency staffing shrinks. In the last 2 years 
alone, Save the Sound has been forced to initiate legal 
enforcement actions against five industrial polluters in 
Bridgeport, Connecticut.
    Even more troubling is the lag in reducing nitrogen 
loadings that appear to be surfacing. In New York City and 
Westchester County, consent orders have potentially granted a 
3-year TMDL compliance extension. In Connecticut, limited clean 
water funding led to a reissued and relaxed nitrogen general 
permit. Section 119 specifies that ongoing special emphasis in 
granting be given to four key areas. Unfortunately, support of 
ongoing enforcement programs seems to have gotten the short 
shrift.
    While compliance and enforcement are critical, they are 
only as good as the underlying laws. In a water body co-owned 
by two States, regulatory parity is essential. Section 119 
requires that State legislatures be convened to assess 
potential coordinated legislative efforts.
    Just last year, New York and Connecticut did come together. 
Legislators discussed clean water funding at the Long Island 
Sound summit, but those efforts are limited and voluntarily 
attended.
    A true bi-State, if not multi-State legislator committee is 
needed, not only one that will identify existing differences in 
State environmental quality statutes, stormwater programs, 
fisheries management, and coastal policies, but one that will 
have the power and wherewithal to map and enact coordinated 
legislative policy.
    Lastly, the CCMP should be a living document, one that can 
and does adapt to changing or improved science. It has worn 
well with age, but there is need for review, refresh and 
recommitment. Within this context, the Citizens Advisory 
Council is embarking on sound vision, an effort to create a 
unified picture of our progress: what we have spent, where it 
has gone, the new issues that have arisen, what our next steps 
are, and what it might take to get to the envision. While 
section 119 requires that modifications to the CCMP be reported 
to Congress, it does not prescribe any mandated revisitation.
    The management conference should be commended for 
recognizing the need to retrace the region's steps. However, a 
provision requiring a designium review and a revision of the 
CCMP would simultaneously create accountability, transparency 
and a consistent venue to incorporate adaptive management 
lessons.
    It is true that challenges remain. However, in the last 5 
years of LISRA, the region has made great strides. Stormwater 
pilot programs and miles of newly restored fish runs in 
Connecticut and two prominent cases of hard-fought coastal 
policy defenses in New York remind us that this is a region 
filled with innovation and willpower. If it can be done, it 
will be done; and we are confident that the reauthorization of 
LISRA will guide us through the key years of the CCMP and TMDL 
implementation.
    Thank you very much for your time.
    Ms. Johnson. Thank you very much.
    Ms. Esposito.
    Ms. Esposito. Good morning, Members of Congress. Thank you 
very much for holding this hearing.
    My name is Adrienne Esposito. I am the executive director 
of Citizens Campaign for the Environment. We are a bi-State 
organization with six offices throughout New York and 
Connecticut and 80,000 members.
    I am going to just make three points. I do not want to be 
redundant. You have heard a lot. I think the point here is: 
What can you do? Well, thank you for asking. We do have some 
suggestions.
    The first thing we need to talk about is funding. As you 
may know, two Federal laws allow there to be $65 million per 
year allocated to our Long Island Sound restoration programs. 
The Stewardship Act allows up to $25 million, and the Long 
Island Sound Restoration Act allows up to $40 million. These 
are not arbitrary numbers, but rather, these numbers were 
identified from the need.
    What is the need to carry on those programs? Well, the need 
is $65 million per year. Ah, yes, but what have we received? 
Not that. In 2006, we were allocated $2.2 million; in 2007, 
$2.7 million, and in 2008, $5.5 million. We are receiving 
between 2 and 4 percent of the identified need.
    Some Members of Congress recently in the U.S. Senate have 
said to me, Adrienne, why haven't we done better with restoring 
the Sound?
    I said, Give us more. You will get more.
    That is really the truth, but there is a bigger truth, and 
that is that the year-to-year way that funding is allocated 
acts as a roadblock to initiating some of the long-term 
projects that are needed to restore the Sound. From year to 
year, we do not know how much money we are getting. In some 
years, it was threatened we were not getting any at all; and 
when you do not know if you are going to get between $2 million 
or $5 million or $6 million, it is hard to start programs and 
projects that will take 4 and 5 years for the results to come 
in if you do not know if you are going to have funding 4 or 5 
years down the line.
    So we are asking Congress for two things. One is we need 
more money, but we also need for you to think differently about 
how you allocate money for our great water bodies. We need it 
in 3 to 5 years of increments, not year to year, because that 
has acted as a roadblock to the larger holistic programs that 
need to be implemented.
    The second thing I want to talk about is lobsters. Why, you 
may ask? Well, the reason is that every water body has that one 
species that identifies and characterizes the water body. For 
that and for Long Island Sound, that is lobsters. I am sure Mr. 
Crismale will talk about that, being a lobsterman. But we want 
to say that the Federal Government, unfortunately, has been 
absent in the restoration of the lobster population, with the 
exception of funding that was provided in 1999 or the year 
2000.
    Maine has a successful V-notch program. New York has 
nothing. Connecticut, to their credit, has worked to emulate 
Maine's V-notch program and to put some local characterization 
on it. Every year, we battle in Connecticut to get the money 
for the V-notch program. It is in the budget. It is out of the 
budget. It is in the budget. It is not an expensive program; 
$300,000-$400,000 per year is needed for 3 consecutive years. 
New York does not have this program. We cannot V-notch half the 
lobsters that are on the Connecticut side and do nothing on the 
New York side. It does not work that way.
    I hope you will agree with me when we say lobsters move, 
and they do not pay attention to the political boundaries. We 
need one V-notch program that will allow for the females to be 
thrown back into the water for 3 consecutive years so we can 
build up our lobster population. In the heyday, it was $40 
million of resources. We believe this would not be an 
expenditure of funds but, rather, an investment of funds from 
our Federal Government.
    The last thing I just want to mention that no one has 
mentioned yet is that the one thing the Federal Government can 
do is have a large-scale, cohesive, comprehensive, bi-State, 
public education campaign. It is not just the government's 
responsibility to care for and protect the Long Island Sound. 
We have a job, too. The public needs to be enlisted, and yet 
they have not been so.
    Let me just tell you that the Long Island Sound Study 
released a public perception survey back in 2006. It is not 
very good news. What the results found is that 90 percent of 
residents agree that humans severely are abusing our 
environment, but yet only 70 percent of the residents felt that 
they did anything that abused the environment, that they did 
nothing. So 70 percent felt that it wasn't their fault, it was 
the other people's fault. They also found that there wasn't 
anything that they could do to improve the quality of water on 
Long Island Sound, but their neighbors could do things that 
would improve the water.
    So we are getting it a little bit as members of the public, 
but the public is not really engaged in how they can help and 
how their actions are meaningful in the protection of the water 
body. So whether it is not using fertilizers, not using 
unnecessary pesticides, disposing of waste--whether it is 
cigarette butts or the ubiquitous plastic bag--these are all 
things that people can be doing to enlist in protection of the 
Sound, and yet the message is not getting through.
    Westchester County has done some good educational 
components, and so have many of the nonprofit sector, but 
really we need some Federal leadership in this area as well. 
Other great water bodies have this. The Chesapeake has unified 
messaging. We do not have that for the Long Island Sound.
    So, if I had to choose three things, I would say to you we 
need consistent funding for 3- to 5-year intervals. We need a 
V-notch program that is sponsored by the Federal Government 
which helps our lobstermen and our lobster populations, and we 
need to engage and enlist the behavior of the public to change 
and become stewards of the water body.
    Thank you for the opportunity to comment.
    Ms. Johnson. Thank you very much.
    Mr. Crismale.
    Mr. Crismale. Good morning, Madam Chairman and Members of 
the Committee. I want to thank you for this opportunity to 
speak before your Committee this morning.
    My name is Nicholas Crismale. I live in Guilford, 
Connecticut, and I have been a commercial lobsterman and shell 
fisherman in Long Island Sound for 37 years. I have so much to 
say and so little time to say it. In the interest to avoid a 
redundancy of my testimony, I would just like to highlight a 
few points.
    Prior to a significant mortality event in 1999, the lobster 
fishery was the most important commercial fishery in 
Connecticut and Long Island Sound. In 2000, just after the 
mortality event in the fall of 1999, the U.S. Department of 
Commerce declared the lobster fishery in Long Island Sound a 
commercial fishery failure due to a resource disaster.
    The general consensus of the Long Island Sound lobstermen 
was the mortalities were related to water quality and to the 
spraying of mosquito control pesticides during the West Nile 
virus crisis in the fall of 1999.
    Following this mortality event, an initial assessment of 
the economic and human impact was conducted by Human Ecology 
Associates in January of 2000, and it found that approximately 
70 percent of the western Sound lobstermen had lost 100 percent 
of their fishing income in the following year, and the 
remainder lost 30 to 90 percent of their income. The study also 
noted that, because of the severity and suddenness of the die-
off, the lobstermen found it difficult to switch to other 
fisheries or to new vocations.
    The basic fishing infrastructure of lobster wholesalers, 
bait dealers, equipment suppliers, restaurants, were all 
impacted. And to this day, the few remaining lobstermen have to 
travel out of State to get bait and supplies.
    At present, the few remaining lobstermen in Long Island 
Sound are not optimistic about their future in the lobstering 
industry. What is happening to our lobster now is something 
that is pretty specific to Long Island Sound. You are not going 
to find some of these problems that we now experience in other 
northern waters, for example.
    A recent study done, the economic assessment of a 
Connecticut commercial lobster fishery done by the Connecticut 
Sea Grant Program--and I just received this, so it was not in 
my testimony, and it was several survey questions. I just want 
to focus on survey question number 11, which asks: What do you 
envision for your fishery in 5 to 10 years?
    The response of the majority of the fishermen was that most 
of the respondents felt that the industry would be extinct in 5 
to 10 years or that it would continue to deteriorate.
    The lobster from the eastern end of Long Island Sound 
continue to see a large percentage of their catch with shell 
disease. At times, 40 to 50 percent of their catch is affected. 
It is a disease whereby the lobster develops lesions and 
pitting on the carapace, caused by external bacteria that 
digest the minerals in the lobster's shell. Lobstermen believe 
that the coincidence of the continued use of chitin inhibitor 
pesticides to control moths and the compromising of the 
lobster's immune system prevent the lobster from producing the 
enzymes necessary to produce chitin, which is needed to harden 
its shell, not to mention the economic issue of attempting to 
sell a shell-diseased lobster to a wholesaler. They are not 
very appetizing looking creatures for a customer's dinner 
plate.
    Preliminary data from a University of Connecticut 
researcher shows that female lobsters have a higher rate of 
incidence of shell disease in that affected females carrying 
fertilized eggs under their tails may molt prematurely before 
the eggs are released, ending any chance of larval survival.
    Municipalities continue to use the pesticide methoprene to 
control mosquito larvae. They actually have programs where 
slow-release briquettes are placed in drainage basins to kill 
mosquito larvae. What happens is the pesticide eventually makes 
its way to Long Island Sound. This chemical is designed to kill 
mosquito larvae, which, very much like lobster larvae, the 
chemical impacts it. It does not discriminate between the 
anthropoids.
    The lobster resource has all but disappeared from the near-
shore areas of the central Long Island Sound basin. Since 1972 
up until 1999, I and fellow lobstermen remember setting traps 
within a stone's throw of the shore areas, and now find the 
lobster population has moved off to the areas more center to 
the Sound from the shoreline.
    The Atlantic States Marine Fisheries Commission has 
determined that the southern New England lobster stock is 
depleted. However, overfishing is nonexistent, which can only 
lead to the conclusion that the stock is being impacted by 
water quality issues which are impacting the ecosystem; but 
this same determination of the ASMFC does not address the 
collateral impacts of water quality but, rather, chooses to 
implement regulations limiting the lobsterman's catch, which is 
already below the sustainable economic level of the fisherman.
    What we will lose will be the true stewards of Long Island 
Sound--the lobstermen who fish their area-specific waters 
yearlong and who are the first to observe changes to the Sound 
and the ecosystem. In the last few years, the fish trawling 
industry has been all but eliminated, and the fresh fish 
brought in daily by these boats to local Connecticut ports is 
gone.
    As we develop aquaculture programs in schools and encourage 
our children to seek involvement in the fishery, it is our 
obligation to ensure that those opportunities exist for them in 
the future. One has only to read "Our Stolen Future" by Theo 
Colburn and John Myers to be reminded how fragile our ecosystem 
is. And if we neglect action now, we will have eliminated our 
children's opportunities in these fields.
    In closing, I believe we need broad acceptance of the fact 
that the sources of the problem are extremely difficult ones to 
address and will require sustained collaboration between 
administrative and regulatory agencies, legislatures, coastline 
residents, boaters, recreational and commercial fishermen, and 
those with commercial interests. Difficult choices will have to 
be made by surrounding communities, farming and other entities 
that impact sewage and nonpoint source water runoff if we are 
to sustain the ecosystem necessary to retain Long Island 
Sound's viability. I fear that Connecticut may get an 
unpleasant surprise one spring, finding that the fragile Sound 
that they look so forward to enjoying every year can no longer 
be utilized because we may breach the threshold at which the 
Sound can sustain living aquatic life.
    I would like to leave you with one thought. When those 
pilgrims landed and Plymouth Rock, you don't think they 
survived on turkeys that they found on the beach that winter. 
They were lobsters.
    Thank you very much, Madam Chair, and Members of the 
Committee.
    Ms. Johnson. Thank you very much. I am going to yield to 
Mr. Hall for his questions. I know you have to leave.
    Mr. Hall. Thank you, Madam Chair.
    And thank you all for your testimony. I am also familiar 
with New Bedford, Massachusetts' problems with PCB 
contamination and their lobster population. And I guess I would 
concur with Ms. Esposito's comments about the need for an 
education program, which all of your agencies or nonprofit 
organizations can help with, and we in government at all levels 
of government need to help with.
    This weekend I was fortunate to be able to announce, along 
with our State and D.C. officials, the planning of two 
stormwater control runoff, filtration and retention programs 
that are being funded with stimulus dollars that came from the 
Federal Government to the State government through the counties 
and to the towns, one in Orange County, which runs ultimately 
into the Hudson, and one in Dutchess County. My hometown in 
eastern Dutchess County has a 10-mile river running through it 
that actually runs into Connecticut and winds up in Long Island 
Sound more directly. I have many questions, and more than we 
have time for, but I would ask first of all, maybe starting 
with Ms. Esposito, A, how do we go about getting people to 
realize that each individual, their family, and their children 
are a part of the ecosystem? This is not a situation where it 
is just a matter of lobstermen losing their livelihood; it is 
that we ultimately are all drinking the same water. In this 
past appropriations cycle, for the first time in the 2 years 
and 9 months that I have been here, the number one item we have 
been asking for has been water, either clean drinking water or 
wastewater treatment. And so you know, we are starting, even 
though it is further away from the Sound, to realize that 
whatever we put in the water, whether it is lawn chemicals or 
whatever we flush down our septic systems or municipal sewage 
treatment, sooner or later it all winds up in the same body of 
water. The water cycle continues on, and includes micro-
contaminants, like the insecticides that we just heard about 
and prescription drugs and caffeine and acetaminophen and 
everything else. We never thought that we could affect the 
oceans in the manner we are. This is not even to mention what 
is precipitating out of the atmosphere. So how can we all 
collaborate to better inform the public that we are all 
literally connected and living in this environment together 
with the lobster? You know, our brother and sister lobster?
    And second, how does this affect, or how does the projected 
sea level rise, this I guess would go to Mr. Scully and Mr. 
Tedesco first, how would we be affected by and how should 
municipalities plan for the projected sea level rise--say the 
medium scenario, not even the worst case scenario? I am hearing 
some pretty scary numbers in terms of infrastructure going 
underwater, boardwalks and promenades and shoreline, you know, 
towns where they beautified their waterfront and put 
restaurants and shops in pretty close to the water level. And 
what is likely to happen to them, not to mention railroad beds 
and highways? So this is part of the education process that 
needs to go on. It is not just education regarding 
contamination of the water, but all of us being involved in 
preventing the worst case climate change from happening so we 
don't see that level of sea level rise. And the same question 
to as many people as can answer in the next 38 seconds.
    Ms. Esposito. Well, I will just start with the public 
education question which you asked. And I would say, I mean, as 
a grassroots specialist for the last 25 years--I started when I 
was 10--I can tell you that the most challenging thing to do is 
to change public behavior. It is very difficult. However, it 
also reaps the best and the biggest rewards, because then you 
have sustained change.
    And right now, we don't have any specific messages that we 
are giving to the public in a cohesive, collaborative manner 
throughout the Long Island Sound watershed. So to answer your 
question succinctly, I didn't mean to imply it would be easy, 
but I do mean to imply it is doable, that we would have to have 
messages, much like a marketing campaign, that would empower 
the public to know that their actions matter and their actions 
do actually impact, either beneficially or adversely, the water 
quality in the Long Island Sound.
    So we would need one message throughout the whole 
watershed, including New York and Connecticut, which is why I 
think we need some Federal guidance on this to have one 
message, to have one set of actions people can do that we start 
with. And once that starts to permeate and filter into the 
public action, we can expand it. But we need to start 
somewhere.
    Mr. Hall. Madam Chair, if I may, could Mr. Scully and Mr. 
Tedesco answer briefly?
    Ms. Johnson. Does someone else have a response?
    Mr. Scully. Thanks for the opportunity. I can't say it any 
more succinctly what Adrienne said about the public education 
aspects of it that you correctly raise. With regard to the sea 
level rise concern that you raise, I think that is a daunting 
challenge. In New York, our State legislature created a Sea 
Level Rise Task Force that generated a report for policymakers 
to consider. It addresses all of the issues that you had 
raised--and they are daunting--about the implications of sea 
level rise and how the there are implications for every level 
of government and infrastructure along the waterfront, whether 
it be wastewater treatment or other. The significance of the 
economic implications having to redo infrastructure, it is just 
daunting.
    So I think that--I have no real answer other than to say 
policymakers and government officials on all levels I think 
have a responsibility to try and keep that issue and the need 
to plan ahead front and center. And that is not going to be an 
easy thing to do, because as you know, particularly in a time 
of fiscal crisis, getting policymakers to focus on those types 
of issues, long-term planning as opposed to the crisis of the 
day, is inherently difficult and something we need to, as 
environmental agencies, try to keep focused on.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Tedesco. Just real briefly, change is here. Sea level 
is rising. Water temperatures are increasing. Some key things 
that we need to focus on are in the context of protecting 
habitat. We need to protect land that is upland of some 
critical tidal wetlands along the Long Island shoreline so that 
we can allow migration of these wetlands. We need to monitor 
changes in Long Island Sound so we can anticipate the types of 
changes and potential impacts that would occur. And we have a 
sentinel monitoring program being established to help us better 
forecast the kinds of changes that will occur in Long Island 
Sound. And third, we do need to have planning across Federal, 
State, and local levels. We have a project working with the 
State of Connecticut for the City of Groton to develop a 
climate change adaptation plan across all levels of government, 
working very closely on the local level, that could be a model 
then for other municipalities in Connecticut and in New York.
    Mr. Hall. Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Bishop.
    Mr. Bishop. Thank you very much, Madam Chair, and thanks to 
all of the panelists for both your excellent testimony and also 
for the work that you have put in for a great long time in 
terms of improving the Sound.
    My first question is for Mr. Tedesco and Mr. Scully. We 
know at least two things. We know that the majority of the 
nitrogen loading in the Sound comes from discharges from 
wastewater treatment plants, and we also know that a great many 
of our wastewater treatment plants are in need of upgrade or 
repair. And so my question is what, if any, coordination is 
there between the Long Island Sound Study office and the New 
York State Environmental Facilities Corporation, which as you 
know controls and allocates the funding for wastewater 
infrastructure projects? Peter, if we could maybe start with 
you and then Mr. Tedesco.
    Mr. Scully. An honest answer, Congressman, is that I am not 
familiar with what level of coordination there is between the 
Long Island Sound Study and EFC. But clearly, it falls to us at 
DEC to implement the TMDL and the permit modifications for the 
wastewater treatment plants. So we are very much on top of that 
aspect of the wastewater treatment plant piece of this. And we 
know where the economic needs are in terms of phase two 
upgrades for some of the facilities. And we have been 
supportive of efforts by those owner-operators to obtain 
whatever financial assistance they can through EFC. I can't 
tell you what level of coordination there is between the Long 
Island Sound Study office. Mr. Tedesco may be able to do that.
    Mr. Bishop. Mr. Tedesco?
    Mr. Tedesco. I think one of the positive outcomes of the 
regulatory organization under the TMDL that has been 
established is that the priorities of the Long Island Sound 
Study have been incorporated fundamentally within the clean 
water programs of both New York and Connecticut. So speaking of 
New York, the needs regarding Long Island Sound are 
incorporated within the statewide need assessment in New York 
so that priorities are reflected within the Environmental 
Facilities Corporation funding. Some recent examples of that 
are some of the recent stimulus funding was directly applied to 
Long Island Sound, and it points out then the close 
cooperation--this was an example of both the Greenpoint plant 
in eastern----
    Mr. Bishop. Greenport.
    Mr. Tedesco. Greenport, pardon, Greenport in eastern Long 
Island Sound, as well as facilities in Westchester County, and 
also some of the facilities in New York City, where those funds 
were targeted at some of the wastewater treatment plant 
upgrades necessary for nitrogen removal.
    Mr. Bishop. With reference to the Greenport plant, let me 
just make a point. The stimulus has been roundly criticized by 
a great many. Greenport is a community with a year-round 
population of 2,200 people. They have their own wastewater 
treatment facility. They were under a court order to improve 
it. Through the stimulus package, they were able to get close 
to $4 million to upgrade that plant. It does not take a genius 
to figure out what the tax impact on 2,200 families would be of 
a $4 million obligation. This is an example of the stimulus 
being used to both improve our environment and to relieve local 
tax burden. Quite the contrary from the way the stimulus has 
been presented.
    Second question, I am running out of time, both the States 
of Connecticut and New York have made significant investment in 
improving and maintaining the quality of Long Island Sound. 
Both the States of Connecticut and New York, particularly New 
York, are in serious financial difficulty. Let me start with 
you, Commissioner Marrella. How do you anticipate the ability 
of your state to continue to fund Long Island study projects?
    And then, Mr. Scully, if you could talk with respect to New 
York.
    Ms. Marrella. Thank you for the opportunity to discuss that 
topic. I am actually very pleased to report that Connecticut is 
quite committed to clean water. Even in these tight times, we 
have continued with bond authorizations that are substantial 
for clean water improvements. We have general obligation bonds 
in fiscal year 2010 for $65 million and $40 million and fiscal 
year 2011 as well as revenue bonds of $80 million each year. 
That contrasts with the last recession cycle, where it went 
down to zero. So I think the commitment is there. And thanks to 
in large part our nonprofit organizations, who have continued 
to make clear how important this is. So I am confident that 
while the dollars won't be as substantial as they have been in 
the past, they are continuing, which is extraordinary in these 
economic times.
    Mr. Bishop. Thank you.
    Madam Chair, could Mr. Scully just have 10 seconds?
    Mr. Scully. I think I would generally echo what the 
commissioner said. There is no indication at all the State of 
New York would back away from its longstanding commitment to 
the Long Island Sound. One can't predict really what the budget 
situation will be like in the coming weeks and days ahead, but 
I think that as a State the administration is firmly committed 
to continuing its role.
    Mr. Bishop. Thank you very much.
    Thank you for the indulgence, Madam Chair.
    Ms. Johnson. Thank you. Mr. Tedesco, would you describe any 
relationship, formal relationship that you might have with 
Massachusetts, New Hampshire, and Vermont, in currently 
reducing the water quality impairments in the Sound?
    Mr. Tedesco. Currently, they have been working very closely 
with us. We have staff in all three States that have been 
working on a Connecticut River work group. They all do 
contribute nutrient pollution to Long Island Sound through the 
Connecticut River. Massachusetts also through the Thames and 
Housatonic Rivers. There are going to be some tough decisions 
ahead. They do contribute. They need to be part of the 
solution. And they need to be incorporated into a comprehensive 
program.
    At the same time, they look--they have a host of other 
water quality needs, their own coastal waters, their own 
drinking water. And we need to develop a program that meets 
Long Island Sound's needs but takes into account, again, some 
of the flexibility needed to do it in a cost-effective, 
sensible manner. And as suggested, there are opportunities to 
try to expand the pollutant trading program so that, again, we 
make investments as wisely as possible, affect the sources that 
have the greatest impact, allow them to be partners but in a 
way that makes economic and environmental sense.
    Ms. Johnson. Thank you.
    Mr. Scully, in your testimony, you noted that a number of 
Federal programs exist to support the restoration of the Sound. 
Are the Long Island Sound Restoration Act, the Long Island 
Sound Stewardship Act and the Clean Water Act's, section 119 
and section 320 programs, fully seamlessly integrated? If not, 
should there be some other action to achieve this integration?
    Mr. Scully. In my comments I spoke about the potential for 
consolidating two of the statutes into a single piece of 
legislation, something that the State would ask the Committee 
to consider. Past that, I am not familiar enough with it to 
make any specific recommendation.
    Ms. Johnson. If there was a program that included 
Massachusetts, Vermont, and New Hampshire, do you feel we would 
have a comprehensive approach, or a single program, that 
everyone followed?
    Mr. Tedesco. Madam Chair, certainly I think, again, we need 
to have all States, all contributing sources at the table and 
contributing. It is no different than the challenge that I know 
you are familiar with in the Chesapeake Bay, where again a 
five-State solution is needed. For Long Island Sound, a five-
State solution is needed as well.
    Ms. Johnson. Thank you.
    Ms. Esposito, on page 5 of your testimony, you state that 
there is no cohesive stormwater management plan for the entire 
Sound watershed. Would you describe what you had in mind that 
might achieve that?
    Ms. Esposito. Well, the first thing that comes to mind is 
that right now the stormwater management plans are really 
implemented by the local municipalities, whether it be a 
village or a town or the county. And it is really done kind of 
in a hodgepodge, mishmash fashion. And funding is applied for 
by the State. The State then allocates the funding. And then 
there is not even, for instance, Madam Chairwoman, a yearly 
report that would tell us what programs were implemented, where 
stormwater filtration devices were put in, and what kind of 
impact they have had.
    We used in our testimony a model program in Norwalk which 
we felt reaped great results and can provide those results on a 
scientific basis. So I guess to answer your question, we would 
say that at least we could start with a yearly report telling 
us where stormwater filtration devices have been implemented, 
what kind of green infrastructure has been used to avoid the 
need for stormwater filtration devices, and what are the plans 
for next year. Even if we had that, it is a start. But right 
now, because of the localized municipal implementation, it is 
extremely difficult to get a handle on an overall stormwater 
program or programs that are being used right now for Long 
Island Sound.
    Ms. Johnson. Thank you very much.
    Congressman Boozman.
    Mr. Boozman. I guess the follow up to that would be--well, 
first of all, it seems like, as I said in the opening, there 
are some things that you guys are doing really well. And we 
want to compliment you on that. I am going to ask about the 
TMDL, because it seems like that is one of the things that is 
working well. This, though, what you are referencing about 
doesn't seem to be working well. You know, if you have got 
reporting problems and things, and I will be honest, that is 
something that you mention that money is a challenge. I know it 
is in the States. It is a great challenge here also. And it has 
been a challenge for you, even in good times, relatively 
speaking. So I think probably the reality is that is going to 
continue to be the case. Not that you don't have very 
sympathetic ears.
    But the other, you know, this is a difficult problem. I 
mean, that sort of thing is something that maybe you need to 
look to some of the other watersheds as to how they have come 
about and solved, you know, that problem of kind of getting 
everybody on the right page. Again, that is just local 
politics, and that is very, very difficult.
    Tell me about the TMDL. Again, we have heard testimony from 
many watersheds and things and this and that. Your all's seems 
to be working. Why is it working better than some of the other 
areas that we have heard about?
    Mr. Tedesco. If I could just start, really, the State of 
New York and Connecticut deserve a lot of credit. The Long 
Island Sound TMDL is still the most comprehensive, complex TMDL 
in the Nation to my mind. It may be eclipsed shortly by one 
being developed for Chesapeake Bay, but the States of New York 
and Connecticut had the foresight to realize that that was a 
necessary approach, and to complete that in 2000. And it has 
been the guidepost then that can be translated into an 
enforceable program that sets clear expectations. We do--it has 
been pointed out by other panelists, it is not a solution for 
every challenge, and that there are many sources that are 
unregulated that do require educational approaches, local level 
commitment. And we need to remain focused on those elements and 
to improve the accountability structure so that we do know how 
well we are progressing toward elements that are not so easily 
regulated and enforced.
    Mr. Boozman. Is there any willingness--and this kind of 
goes back to the others--is there any willingness to expand, 
you know, have more, oh, a wider variety in regard to point and 
nonpoint in that regard? Are you getting a lot of push back? 
There was probably initial push back from the very start, 
wasn't there, you know, as did you this? But it does seem to be 
working.
    Ms. Marrella. If I could, Madam Chair, I just would speak 
to the fact that definitely there was substantial push back, as 
Ms. Brown testified, from municipalities when they were brought 
under the trading program in Connecticut. A lot of conversation 
helped us to get to the right end point. There have begun to be 
discussions about whether additional sources should come under 
the trading program. That is just a start.
    But one of the things I am most excited about, as was 
mentioned, which is a way to use oysters, seaweed, others as 
commercially viable options that can be natural ways to reduce 
nitrogen in the Sound, at the same time providing an 
agriculture, an aquaculture opportunity for the folks in 
Connecticut and New York.
    Mr. Boozman. Very good.
    Mr. Scully. If I could mention, the only thing I would add 
is you would envision that the most significant concern of 
local government officials who are responsible for the 
wastewater treatment plant upgrades would be the economic 
implications of that. And in New York, using the 1996 Clean 
Water Clean Air Bond Act, what the state did was use a carrot 
and a stick approach, basically explained to folks that these 
modifications are required to protect the Sound but at the same 
time making substantial grant awards to the people who are 
responsible for making the upgrades. And as we move now to 
focus on stormwater as the next big challenge, I think we are 
going to be facing those same types of concerns. And that is 
the reason we raised stormwater as the next big challenge. The 
implications for local government are also significant.
    Ms. Brown. I would like to just pick up on something that 
Commissioner Marrella said, because I think it is really 
significant. For a long time developers did away with salt 
marshes and wetlands. Those wetlands not only allowed for 
natural nutrient removal, sediment traps, pathogen traps, and 
nurseries for fishermen. And I think that is one of the big 
things that needs to be looked at is restoration of salt 
marshes and critical areas like that.
    Mr. Boozman. Good. Well, thank you very much. I have 
enjoyed the testimony and really gotten a lot out of it.
    You know, something that we might do, Madam Chair, fearless 
leader, we really have, you know, we have had a lot of 
different testimonies now from lots of different watersheds. We 
might consider at some point having some sort of a conference, 
you know, on getting them together and getting us together with 
them. And like I say, I am always struck one area seems to be 
doing such a good job and then struggling in another area. If 
we could get everybody sitting around the same table maybe 
talking about some of these things, it might be a good thing to 
do.
    Ms. Johnson. Thank you.
    Ms. Esposito. Could I just comment on that?
    Mr. Boozman. Yes.
    Ms. Esposito. I wanted you to know, in case you were 
unaware, to date, the environmental community already has had a 
conference, working to come up with ideas to address America's 
great water bodies. And we are in the very beginning stages of 
working across the Nation, from Puget Sound to the Everglades 
to Long Island Sound, of bringing together the nonprofit 
communities that have worked to restore and preserve the great 
water bodies.
    So to do it in collaboration with you would be most ideal, 
I think beneficial, and would really help to move all of our 
agendas forward, which is eventually to restore and protect 
these water bodies. So I would encourage you to do so. Thank 
you.
    Ms. Johnson. Thank you very much. Let me just ask each of 
you to comment on what you would like to see, or what policy 
changes would you like to see us make as we consider 
reauthorizing the Clean Water Act as it relates to the Long 
Island Sound program?
    Mr. Tedesco. Madam Chair, I already mentioned in my 
testimony one which seems like a very minor fix, but it points 
to the need that the solution, as mentioned by some of the 
other panelists, has to be integrated in that we need to work 
effectively across many Federal agencies. So that little fix 
that I had suggested in terms of expanding the cooperative 
authorities to make sure that we have the ability to work 
effectively with other Federal agencies so that we are focusing 
on clean water, restored habitats, and healthy and vibrant 
living resources together is what is needed to really restore 
Long Island Sound.
    Ms. Marrella. Thank you, Madam Chair.
    I would just like to piggyback on Ms. Esposito and say that 
I fully support the funding to the $65 million figure, as well 
as multi year funding. And I also would support bringing the 
other States to the table that impact the Sound. They do not 
have as much daily responsibility, but they certainly 
contribute. So a forum for that discussion would be helpful.
    Ms. Johnson. Thank you.
    Mr. Scully. I agree with the commissioner's comments. We do 
think that the--you know, these are regional programs that are 
ground-up in nature, and that the real critical need for the 
program, which is working, is resources, and resources that are 
repeating over a multiyear period, as has been suggested by Ms. 
Esposito, because some of the research needs to take place over 
several years or it would have no value. So finding a way to 
address that multiyear need I think would be critical.
    Ms. Brown. I would like to see funding for public education 
and mandates for public education. As was stated earlier, the 
public does not many times understand the impact that they have 
on a body of water. And if we could mandate somehow that 
communities must introduce public education programs in order 
to be eligible for whatever I think is a very critical item. 
And to the conference, I am sure the Water Environment 
Federation would be very happy to help put something together. 
I think it is a great idea.
    Ms. Schmalz. I think I would reiterate the multistate 
approach to the watershed. I think the Long Island Sound Study 
has done a fantastic job of trying to incorporate watershed 
management in Long Island Sound between New York and 
Connecticut, and reaching up into the reaches, and I think it 
is about time that those States step up and join the party.
    Ms. Esposito. Three things. I, agree multistate 
involvement; it is called ecosystem-based management. Our 
Nation is moving towards ecosystem-based management, which 
means a holistic approach for our oceans and our estuaries. 
Long Island Sound could be a leader in this.
    Number two, again with the public education, I agree, but 
it needs to be cohesive. It needs to be a cohesive message to 
maximize public involvement. Handing out a brochure just 
doesn't cut it.
    And the third one of course is 3- to 5-year blocks of 
funding so that the large tasks can be completed from beginning 
to end and have meaning and substance in the restoration 
process.
    Mr. Crismale. I can only speak on behalf of the lobster 
industry in Long Island Sound. We do have agencies that can 
take care of the Long Island Sound restoration, but what I am 
interested in is Long Island Sound V-notch program. The 
industry has put together along a collaborative effort with 
legislatures, industry, and departments, the DEP in 
Connecticut, a great program, an unprecedented program 
throughout New England that has been monitored by other 
fisheries.
    I am a member of the Lobster Institute, on the advisory 
panel, and they closely monitored this. Unfortunately, we 
didn't receive the funding in time. But this has an education 
component. I mean, we had the kids on the boat. And this is 
where education begins. You want to educate the public, then 
let's educate the students. And where to best do this is in our 
aquaculture schools. We put the kids on the boat. They provide 
much-needed information to DEP and the DEC to make 
administrative decisions. This program, for $300,000, we were 
looking for. We needed this program. I know it is a lot of 
money in this economic climate, but look at the value you are 
getting for it: sustainability for an industry, an education 
component, and much-needed information to make the proper 
decisions for our fisheries in Long Island Sound. Thank you 
very much.
    Ms. Johnson. Thank you very much. Let me say thanks to all 
of you for coming. We will be happy to receive any additional 
information that you might have.
    And I would really request that you let us see the final 
document, Ms. Esposito, of the group's recommendations.
    Ms. Esposito. Okay. Great.
    Ms. Johnson. Thank you so very much for coming. Committee 
adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




</pre></body></html>
